W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-438

OLAF SÖÖT DESIGN, LLC

DAKTRONICS, INC. AND DAKTRONICS HOIST, INC.,

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
Date:

/Kenneth L.Bressler/
September 29, 2021

(Type or print) Name

Kenneth L. Bressler

Mr.
Firm
Address
City & State
Phone

Ms.

Mrs.

Miss

Blank Rome LLP
1271 Avenue of the Americas

Zip

New York, New York
212.885.5203

Email

10020

ken.bressler@blankrome.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

James M. Bollinger
Counsel of Record
Troutman Pepper Hamilton Sanders LL P
875 Third Avenue
New York, NY 10022
(212) 704-6000
james.bollinger@troutman.com

